     Peace Corps
     Office of Inspector General
 




    Final Program Evaluation Report:
          Peace Corps/Guyana

                                February 2009
Final Program Evaluation Report:
       Peace Corps/Guyana
               IG-09-05-E




     __________________________________

                 Shelley Elbert
  Assistant Inspector General for Evaluations




              February 2009
                                   EXECUTIVE SUMMARY
The Office of Inspector General (OIG) conducted an evaluation of the Peace Corps
program in Guyana; the fieldwork was conducted October 6 - 24, 2008. The OIG
evaluation covered fiscal years 2007 and 2008. We identified successful systems and
initiatives that the post had in place; however, we also identified several opportunities to
improve the effectiveness of Peace Corps/Guyana.

At the onset of our evaluation, there were 56 Volunteers (including three Peace Corps
Response Volunteers) 1 and 19 staff in Guyana. Personal interviews were conducted with
20 Volunteers (36% of the Volunteer population) and 12 in-country staff. Eighteen
additional interviews were conducted with Peace Corps headquarters staff,
representatives from the U.S. Embassy in Guyana, and key project partners. There are
two project sectors: (1) Community Health Education and (2) Education and Community
Development with some of the Education Volunteers focusing on Information
Technology (IT).

PC/Guyana is a post that has struggled with low Volunteer satisfaction and poor staff
performance in recent years. It has not been able to spend its President’s Emergency Plan
for AIDS Relief (PEPFAR) budget and meet related goals, and it was the focus of an
Internal Management Assessment (IMA) in 2006. The post has also seen a lot of staff
changes and most of the staff members, including the U.S. direct hires that serve in
leadership roles, have joined the staff in the last few years. Numerous staff members and
Inter-America and Pacific (IAP) regional leaders have worked with the post to strengthen
its programming and processes and improve Volunteer satisfaction and retention.

The OIG evaluation determined that PC/Guyana has made significant improvements.
The post has benefited from the leadership of the current country director who has
worked to improve programming, relationships between the staff and Volunteers, and the
quality of the staff. As a result, Volunteers interviewed as part of this evaluation reported
satisfactory levels of support from staff members and are integrating into their
communities. The post also has good relationships with local Ministries and project
partners. The post is executing its PEPFAR implementation plan and is better integrating
HIV/AIDS activities into current programming. In addition, PC/Guyana recently
implemented a new site matching process that appears to be contributing to improved
Volunteer site placement.

Despite these accomplishments, the OIG evaluation also noted some areas that need
improvement. Volunteers noted some training deficiencies, and the post needs to
complete its competencies and learning objectives and improve its Trainee assessment
process. There are also issues with medical access controls; for example, the post does
not maintain an inventory of medical supplies on a routine basis, and Volunteer medical
files and medical supplies are not securely stored at all times. In addition, Volunteers are

1
    There were no Trainees at the time of this evaluation.


Final Program Evaluation Report: Peace Corps/Guyana                                            i
not receiving their medications in a timely manner. The post’s housing criteria is unclear,
and several Volunteers had to be moved from the houses Peace Corps placed them in due
to housing problems. In addition, performance appraisals are not being done on a regular
basis. Most importantly, problems with staff turnover, morale, and a lack of clarity on
roles and responsibilities for key programming activities, such as site development, may
undermine the post’s recent successes if not resolved. In addition, the post needs to make
sure it remains focused on improving current programming and operations before
exploring expansion efforts.

Our report contains 20 recommendations, which, if implemented, should strengthen
internal controls and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Guyana                                      ii
                                                         TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................. i

INTRODUCTION .............................................................................................................. 1

OBJECTIVES, SCOPE, AND METHODOLOGY............................................................ 2

EVALUATION RESULTS ................................................................................................ 3
PROGRAMMING ............................................................................................................................................... 3

CROSS-CULTURAL UNDERSTANDING .............................................................................................................. 7

TRAINING ........................................................................................................................................................ 8

VOLUNTEER SUPPORT ................................................................................................................................... 12

MANAGEMENT CONTROLS ............................................................................................................................ 16

PEPFAR ....................................................................................................................................................... 22


POST STAFFING............................................................................................................. 24

INTERVIEWS CONDUCTED ........................................................................................ 25

LIST OF RECOMMENDATIONS .................................................................................. 26

APPENDIX A: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT

APPENDIX B: OIG COMMENTS

APPENDIX C: PROGRAM EVALUATION COMPLETION AND OIG CONTACT
                                INTRODUCTION
Peace Corps first received a formal invitation from Guyana in 1966, the year of its
independence. At that time, the Guyanese Government requested Volunteers to serve in
education and infrastructure projects. From 1966 until 1971, more than 160 Volunteers
served in Guyana with the Peace Corps. Peace Corps discontinued the Guyana program
in 1971, after the Government of Guyana requested all overseas voluntary agencies to
leave.

After an absence of nearly a quarter-century, the Guyanese Government approached
Peace Corps in 1993 about the prospects for Peace Corps' re-entry into Guyana. In
March 1995, Peace Corps officially reopened a joint Peace Corps office for Suriname and
Guyana. The first Volunteers arrived in 1995 to work in Community Health and Youth
Development. During 1997, PC/Guyana and PC/Suriname split to form two separate
programs, each with its own permanent country staff and programmatic operations. In
1998, PC/Guyana moved away from a formal Youth Development program and into the
field of Education and Community Development. Presently, approximately 33
Volunteers arrive in one group each year to work in Community Health Education and
Education and Community Development projects. Those Volunteers serve at sites
ranging from the capital city with a population of 300,000 to remote villages with
populations of less than 300, and are attached to schools, non-governmental agencies, and
government health facilities. A total of 470 Volunteers have served in Guyana from 1961
through 2007.

To assist in its Community Health Education and Education and Community
Development work, PC/Guyana receives funding from the President’s Emergency Plan
for AIDS Relief (PEPFAR). PC/Guyana is the only PEPFAR program in the Inter-
America and Pacific (IAP) Region. Volunteers in both the Health Education and
Education and Community Development sectors participate in three separate PEPFAR
areas: Abstinence and Be Faithful, Orphans and Vulnerable Children, and Palliative Care.

The Office of Inspector General conducted a program evaluation of PC/Guyana August -
November 2008, which included a field visit to PC/Guyana October 6 - 24, 2008. At the
onset of our review, the post had 56 Peace Corps Volunteers in the field. The following
table presents demographic data on Volunteers by project, gender, and age. The
demographics for the stratified judgmental sample closely match the demographics for
the entire Volunteer population.




Final Program Evaluation Report: Peace Corps/Guyana                                     1
Table 1: Volunteer Demographic Data
                        Project                                      Percentage of Volunteers
     Education and Community Development                                      25%
     Community Health Education                                               75%
                        Gender                                       Percentage of Volunteers
     Male                                                                     34%
     Female                                                                   66%
                         Age                                         Percentage of Volunteers
     25 or younger                                                            59%
     26-29                                                                    18%
     30-54                                                                    16%
     55 and over                                                               7%
Source: August 2008 PC/Guyana Volunteer Roster, with supplemental information provided by Peace
Corps Response.



             OBJECTIVES, SCOPE, AND METHODOLOGY
The purpose of the Office of Inspector General is to prevent and detect fraud, waste,
abuse, and mismanagement and to promote economy, effectiveness, and efficiency in
government. In February 1989, the Peace Corps/OIG was established under the Inspector
General Act of 1978 and is an independent entity within the Peace Corps. The Inspector
General is under the general supervision of the Peace Corps Director and reports both to
the Director and Congress.

The Evaluations Unit within the Peace Corps Office of Inspector General provides senior
management with independent evaluations of all management and operations of the
Peace Corps, including overseas posts and domestic offices. OIG evaluators identify best
practices and recommend program improvements to comply with Peace Corps policies.

The Office of Inspector General Evaluations Unit announced its intent to conduct an
evaluation of PC/Guyana on August 14, 2008. For post evaluations, we use the following
researchable questions to guide our work:
•   To what extent has the post developed and implemented programs intended to
    increase the capacity of host country communities to meet their own technical needs?
•   To what extent has the post implemented programs to promote cross-cultural
    understanding?
•   To what extent does training provide Volunteers the necessary knowledge, skills, and
    attitudes to integrate into the community and perform their jobs?
•   To what extent has the post provided adequate support and oversight to Volunteers?
•   To what extent are post resources and agency support and oversight effectively
    aligned with the post's mission and program, and agency priorities?



Final Program Evaluation Report: Peace Corps/Guyana                                               2
•   To what extent is the post able to adequately administer the PEPFAR program,
    support Volunteers, and meet its PEPFAR objectives?

The evaluation team conducted the preliminary research portion of the evaluation August
14 - October 3, 2008. This included review of agency documents provided by
headquarters and post staff and interviews with management staff representing the region
and the Office for Overseas Programming and Training Support (OPATS) (previously
called the Center for Field Support and Applied Research). In-country fieldwork
occurred October 6 - 24, 2008, and was comprised of interviews with post senior staff in
charge of programming, training, and support; the U.S. Ambassador and Deputy
Ambassador; the U.S. Embassy Regional Security Officer; host country government
ministry officials, and officials from local partner organizations such as the Centers for
Disease Control and Prevention (CDC). In addition, we interviewed a stratified
judgmental sample of 36% of currently serving Volunteers based on their length of
service, site location, project focus, gender, age, and ethnicity. The majority of the
Volunteer interviews occurred at the Volunteers’ homes; we also inspected these homes
using post-defined site selection criteria. The period of review for a post evaluation is
one full Volunteer cycle (typically 27 months).

This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by the President’s Council on Integrity and Efficiency. The findings and
recommendations provided in this report have been reviewed by agency stakeholders
affected by this review.



                           EVALUATION RESULTS
PROGRAMMING

One of the objectives of the post evaluation is to answer the question “to what extent has
the post developed and implemented programs intended to increase the capacity of host
country communities to meet their own technical needs?” The evaluation does not
attempt to measure Peace Corps’ impact in increasing host country capacity. Rather, the
evaluation seeks to determine whether the post has implemented processes and
procedures that Peace Corps has determined are important factors that contribute to
success in increasing host country capacity in the long-term. To determine this, we
analyzed the following:

    •   The coordination between Peace Corps and the host country in determining
        development priorities and Peace Corps program areas.
    •   The existence of project plans based on host country development priorities and
        the Volunteers’ understanding of the project plan goals and objectives.
    •   Whether Volunteers are placed in sites where they can contribute meaningfully to
        meeting host country development priorities.



Final Program Evaluation Report: Peace Corps/Guyana                                          3
   •   Strong relationships with counterparts that enable Volunteers to have productive
       work assignments that meet host country development priorities.

We found no significant positive or negative findings related to PC/Guyana’s project
plans or Volunteer counterparts. The post continues to work with OPATS (previously
called the “Center”) and the region to hone its project plans, and Volunteers are aware of
their project plan goals and state that their activities relate to their project objectives.
Most Volunteers (75%) reported having at least one counterpart they work with regularly,
and Volunteers reported having good relationships with these counterparts.

PC/Guyana is working with Ministry Officials to place Volunteers in assignments that
address the country's greatest needs.

The United States and Guyana share an active country agreement that was signed in
1967. The agreement lays out the major responsibilities held between the governments of
the United States and Guyana, though the language is not specific to program sectors or
Volunteer activities. Based on input and guidance from the Ministries of Health and
Education, PC/Guyana is providing community education and health education outreach
to targeted populations.

   •   Community Health Education
       The Community Health project operates largely at the community level and seeks
       to support the Ministry of Health’s primary health care program. Health
       Education Volunteers are attached mostly to local health centers and address
       primary health care issues, with a particular focus on HIV/AIDS and maternal and
       child health. Volunteers also work with community leaders, groups, and
       organizations to facilitate community health assessments, design and implement
       community projects, and train health center staff and community leaders. To
       assist Peace Corps/Guyana in this sector, the post has received funding from the
       President’s Emergency Plan for HIV/AIDS Relief (PEPFAR).

   •   Education and Community Development
       The Education and Community Development project works through local schools
       to conduct life skills education with local youth and give them the knowledge,
       attitudes, and skills to successfully meet the challenges of adolescence and young
       adulthood. Volunteers work in secondary schools teaching math, science, or
       English and combine this with life skills education. Another component is IT
       education, which began in 2001 with four Volunteers. Volunteers are working as
       “trainers of trainers” to increase computer literacy amongst youth and teachers.

As part of our evaluation we met with Guyanese government representatives, including
members of the Ministry of Education, Ministry of Health, and National AIDS
Programme Secretariat. We also met with a representative from the CDC, a Peace Corps
partner in Guyana. Our evaluation found that these representatives were well-informed
of Peace Corps activities in their sectors and often had knowledge of specific Volunteers
and their assignments. Although there are no formal Project Advisory Committees



Final Program Evaluation Report: Peace Corps/Guyana                                       4
(PACs) in PC/Guyana, the Ministry and partner representatives have effective working
relationships with Peace Corps staff members. The absence of PACs does not seem to be
affecting the Peace Corps relationships with the host country partners; Volunteers are
working in the sectors and regions desired by the host country partners, and Peace Corps
staff are able to understand host country partners' needs through ad hoc meetings.

The new site matching process has improved Volunteers’ satisfaction with their sites
and enables Volunteers to contribute to Peace Corp/Guyana’s mission through
meaningful work assignments.

PC/Guyana was the focus of an Internal Management Assessment (IMA) in 2006 after
the Inter-America and Pacific (IAP) regional director and PC/Guyana country director
agreed that the post would benefit from the assistance of an assessment team. At the
time, the post was experiencing a high rate of staff turnover, significant safety and
security issues, programming and training deficiencies, and complications from a large
PEPFAR budget and programmatic activities. There was also evidence of Volunteer
dissatisfaction in PC/Guyana. One person commented, “Volunteer satisfaction has been
low in Guyana. Large numbers of Volunteers are not happy with their sites.” Early
termination (ET) reports show that Guyana has had high resignation (RS) rates, with an
average rate that is higher than both the global and regional averages. Furthermore, in
the 2008 Biennial Volunteer Survey (BVS) survey 47% of the Volunteers selected one or
two on a five-point scale (1 = not at all, 5 = completely) when asked how satisfied they
were with their job assignment. 2 It is important to note that all PC/Guyana Volunteers
who responded to the 2008 BVS survey had been in-country at least seven months;
therefore, these survey results do not include responses from Volunteers in the most
recent Trainee input. Over the past few years, the post has been making changes to
address these concerns and improve Volunteer satisfaction and attrition.

A new site matching process was used with the latest Trainee input that was sworn-in for
service in July 2008, GUY 20. The process has two main components: 1) During the
“Host Volunteer Visit,” Trainees stay overnight with a Volunteer at the Volunteer’s site
and report back to the other Trainees so they can inform each other of various living
environments; and 2) Trainees receive site packets that describe the Volunteer projects
that need to be filled. Trainees then select up to five sites/positions that they want to be
considered for and up to three that they do not want. They write a short essay to justify
why they are a good match for their top site preferences. The programming and training
officer (PTO) and program manager(s) review this information and assign Volunteers to
sites based on their preferences.

This process allows Volunteers to learn about living environments and job placements
and submit themselves for consideration for sites that meet their needs in both of these
important areas. Sample comments from the Volunteer and staff interviews indicate that
Volunteers are positive about this new site matching process.


2
  The BVS was administered May to August 2008. The question about job assignment received 21
responses from Volunteers in PC/Guyana.


Final Program Evaluation Report: Peace Corps/Guyana                                            5
        “Two things they did really well were the Volunteer visits . . . and the site
        selection process . . . It had a big impact on my situation and I love where
        I am.”

        “Host Volunteer visits [were] awesome and effective to see the life of a
        Volunteer . . . People are much happier in their sites, comparing GUY 20
        vs. 19.”

        “I think the new process in which the Trainee writes an essay to express
        the type of site they want is a good practice.”

Based on the information received during Volunteer interviews, it appears as though this
process has contributed to increased Volunteer satisfaction with their job placement.
Improvements were noted in “job placement satisfaction” and “counterpart working
relationships” between the GUY 19 and GUY 20 Volunteers interviewed in our sample.

Table 4: Volunteer Responses to Select Interview Questions
                                      GUY 19 (n=5)                      GUY 20 (n=13) 3
    Volunteer Interview                      % rating                           % rating
         Question               Average    “satisfied” or          Average    “satisfied” or
                                               better                             better
How satisfied are you with
                                   3.4             60%                4.6             100%
your job placement?
Please characterize your
working relationship with           3              75%                4.1             92%
your primary counterpart.


Staff also noted that morale has improved with the most recent Volunteer input and
resignation rates are lower than they have been in recent years. Although there are
numerous factors that contribute to Volunteer satisfaction, comments from Volunteers
indicate that the new site matching process is contributing to the improvements.




3
 Twenty Volunteers were interviewed in total. Five were part of GUY 19, 13 were part of GUY 20, and
two were Peace Corps Response Volunteers who are not part of a typical training input.


Final Program Evaluation Report: Peace Corps/Guyana                                                   6
               We recommend:

               1. That the post document the new Site Matching
                  Process and continue using it with future Trainee
                  inputs, if feasible.


The improvements seen during this evaluation, especially when comparing GUY 19 to
GUY 20 Volunteers, is encouraging and demonstrates that the post is making positive
changes. But, as the rest of this report will show, there is still work to be done in
important areas. Guyana is a country with many needs, and staff, IAP region leaders, and
Volunteers all noted that PC/Guyana leadership is often working on expansion
opportunities. While it is good that the post is thinking about the future, these expansion
efforts take time and focus away from current programming and the post’s remaining
improvements. Given that Ministry officials state that PC/Guyana is already serving in
critical areas and the post needs to continue making improvements in programming,
training, and internal controls and management, we encourage the post to hone good
programming processes and stabilize operations in its current sectors before expanding.

CROSS-CULTURAL UNDERSTANDING

The second objective during a post evaluation is assessing whether Peace Corps programs
in a given country help promote a better understanding of Americans on the part of the
people served. In order for this to occur, Volunteers must understand and appreciate the
culture of their host country as well as their own. Cultural exchange is an integral part of
the transfer of knowledge and skills that occurs between host-country community
partners and Volunteers. To understand the extent to which the post has implemented
programs to promote cross-cultural understanding, we interviewed Volunteers, post staff,
and Ministry officials and reviewed training and evaluation materials.

PC/Guyana’s training format and content enables Volunteers to integrate into their
communities.

As noted in A Blueprint for Success, the Office of Inspector General’s case study of
effective Peace Corps programs, it is common for Volunteers to stay with a host family as
part of community-based pre-service training (PST), and longer homestay experiences
facilitate community integration. During PST, PC/Guyana Trainees live with a host
family for eight weeks, which helps with cultural integration since they are interacting
with host country nationals on a regular basis. The post recently changed the location of
PST from the capital city of Georgetown to the Essequibo Coast to provide Trainees with
a PST experience that is more reflective of Volunteer sites and further prepare them for
service. PC/Guyana’s PST contains 30 hours of cross-cultural training, including a
Fourth of July Picnic/Guyanese Culture Day. Although Guyana is an English-speaking
country, Creolese is spoken by many people and six hours of Creolese language training
is provided during PST.




Final Program Evaluation Report: Peace Corps/Guyana                                       7
The cultural training and experiences provided to Trainees appears to be effective since
our evaluation found that 100% of PC/Guyana Volunteers rated themselves as having
“average success” to being “very successful” in understanding cross-cultural issues, with
an average rating of 4.1 on a five-point scale (1 = unsuccessful, 5 = very successful).
Organizations that partner with the Peace Corps also recognize and have been able to
benefit from the Volunteers’ integration into their communities. One representative
commented, “Volunteers live and work with the people in the community. [Our
organization] linked up with a Volunteer when we went to region 1. The Volunteer knew
the headmaster and was well-received. It provided an entrée into the community and
instant credibility for [our organization].”

Members of the Ministries that PC/Guyana partners with agreed that Volunteers are
adapting to the culture and integrating into their communities, and the representatives
mentioned that they like the set-up of Trainees living with families. One representative
shared a story of a Volunteer who was so well integrated that they had a ceremony based
on local religion and culture when the Volunteer finished his service instead of a typical
goodbye celebration. This representative commented, “It takes time. Some of them
adapt quickly. Some of them take longer but eventually they get there. By the time they
leave Guyana it’s part of who they are.”

TRAINING

Another objective of the post evaluation is to answer the question “to what extent does
training provide Volunteers the necessary knowledge, skills, and attitudes to integrate
into the community and perform their jobs?” To answer this question we consider a
number of factors, including:

   •   The existence of training goals, competencies, and learning objectives that help a
       post understand the skills Volunteers need.
   •   The types of training Trainees and Volunteers receive and the topics covered
       during those training sessions.
   •   Feedback on the effectiveness of training in providing the skills and knowledge
       needed for Volunteer jobs.

Volunteers in PC/Guyana receive several trainings throughout their service, including
PST, an in-service training (IST) after three-months of service, and an IST after 12
months of service. The first IST is a Project Design and Management (PDM) workshop
and the second IST is a mid-service conference. Overall, we found that PC/Guyana
Volunteers are satisfied with their training. Volunteers were asked to rate how effective
PST was in several key areas – language, culture, safety and security, medical and health,
and technical aspects. The following table summarizes Volunteers’ perceptions on the
effectiveness of their training.




Final Program Evaluation Report: Peace Corps/Guyana                                         8
Table 6: Volunteer Perceptions of Training Effectiveness
                                      Below                       Above
                     Ineffective                  Moderate                       Very
       Area                          average                     average                      Average
                         (1)                        (3)                      effective (5)
                                       (2)                         (4)
PST1
 Language                 0%           25%           50%           19%            6%             3.1
 Culture                  0%           26%           42%           26%            5%             3.1
 Safety/Security          0%            0%           21%           47%           32%             4.1
 Medical/Health           0%           37%           32%           26%            5%             3.0
 Technical               11%           26%           32%           21%           11%             2.9
Three-month IST
       2                  0%           60%           40%           0%             0%             2.4
(PDM)
12-month IST
(mid-service              0%            0%           60%           40%            0%             3.4
conference)2
Source: OIG Volunteer Interviews.
1
  N= 19 (except for “language” which had 16 responses; three Volunteers felt that it was not applicable
since Guyana is an English-speaking country)
2
  N=5



Because PC/Guyana has not fully transitioned to the Training Design and Evaluation
(TDE) model, the post lacks a way to determine if Volunteers are receiving needed
skills and competencies.

Peace Corps recommends that posts follow a TDE process that involves the creation of
competencies and learning objectives. Core competencies are clusters of knowledge,
skills, and attitudes related to major functions all Volunteers perform. Learning
objectives (or competency indicators) are measurable indicators of knowledge, skills, and
attitudes. Agency training guidelines were recommended by the Director of the Center
for Field Studies and Applied Research (now called OPATS) in a 2006 memorandum and
approved by the agency Director. In part, the memorandum stated the following:

        First, establish a consistent definition of competency…Second, learning
        objectives during training are competency indicators…Finally, learning
        results will be measured…

PC/Guyana staff, the IAP region, and specialists in OPATS (previously called the
“Center”) all recognize that the post is still in process of transitioning to the TDE model.
At the time of the evaluation, the post had drafted technical competencies in the areas of
Education and Health as well as learning objectives. However, the post has not fully
integrated these into the training curriculum and assessment process. PC/Guyana uses a
Trainee Assessment Packet (TAP) process in which Trainees assess themselves and
trainers review the self-assessments. The areas of assessment do not yet match the draft
competencies and learning objectives. For example, the learning objectives express the
post’s aspiration of having Trainees develop skills such as “the role of the Volunteer in
development, PEPFAR, health and well-being, and safety and security”, whereas the



Final Program Evaluation Report: Peace Corps/Guyana                                                       9
TAP assesses Trainees in the areas of “motivation, social sensitivity, and emotional
maturity.” Without a clear link between the skills Volunteers need, the training
curriculum, and the assessment process, PC/Guyana cannot ensure Volunteers have the
knowledge, skills, and attitudes needed to integrate into the community and perform their
jobs. Volunteers in our evaluation noted a few areas where training improvements are
needed to give them essential skills – technical training for Education Volunteers, cross-
cultural training, and grant-writing.

Technical training for Education Volunteers

In the 2008 BVS survey, 67% of Volunteers said their technical training was “not
effective” or “poor.” 4 Technical training also received the lowest rating among the
Volunteers we interviewed, with an average of 2.9 and 37% of the Volunteers rating it as
“below average” or “ineffective.” Volunteers in the Education sector provided lower
technical training rankings than those in the Health sector. On average, Education
Volunteers rated their technical training as 2.8 with 44% of the Volunteers rating it as
“below average” or “ineffective,” whereas Health Volunteers rated technical training as
3.4 with only 14% of the Volunteers rating it as “below average” or “ineffective.” The
primary complaint of Education Volunteers is that they did not receive adequate training
in phonics and literacy, which is one of the main Education project objectives. Sample
comments include the following:

           “There wasn't any solid, concrete information. I have a background in
           teaching so I feel comfortable in my job. For people without prior
           knowledge I wonder if they know enough. There was a lot of theory, not
           telling people how to actually teach literacy. That's frustrating because
           that's a VAD goal.”

           “Literacy is specific so I wanted to know how to work with kids on it, how
           to assess them, types of activities, etc. I didn't feel prepared.”

           “There was a lack of the concrete, hands on of literacy . . . The phonics
           should have been stressed”

           “They should have taught me how to deliver a phonics lesson.”

Cross-Cultural training

The Volunteers we interviewed also noted that culture training needs to be improved to
address all relevant ethnicities in an unbiased way. Although the average rating for
culture PST was 3.1 and, as already noted in a previous section, Volunteers feel well-
integrated into their communities, Volunteers noted that training needs to include
information on Indo-Guyanese and Amerindian cultures, and facilitators need to present
the information in an unbiased, unprejudiced way.


4
    The question about technical training received 21 responses from Volunteers in PC/Guyana.


Final Program Evaluation Report: Peace Corps/Guyana                                             10
Grant-writing training

The lowest average rating for training effectiveness was for the three-month IST, which
is a PDM workshop. Due to their length of time in service, only five of the Volunteers
we interviewed had participated in the workshop. On average, these Volunteers rated the
PDM as 2.4, with 60% rating it “below average.” Volunteers reported that they felt that
the IST PDM workshop needed to dedicate more time to providing practical information
like how to complete and submit a grant request.

              We recommend:

              2. That the post develop competencies and learning
                 objectives before the next Trainee input arrives.

              3. That the post develop a PST Trainee assessment
                 that links to the competencies and learning
                 objectives and includes assessments from trainers.

              4. That the post improve phonics/literacy and cross-
                 cultural training and monitor Volunteer satisfaction
                 with PST in these areas.

              5. That the post solicit Volunteers’ feedback when
                 developing IST curricula to ensure the training
                 provides relevant skills.


Volunteers do not receive advance training and receipt of trimesterly reports.

Volunteers in PC/Guyana submit status reports on a trimesterly basis (except for Peace
Corps Response Volunteers who submit monthly reports). This information is compiled
by programming staff and then sent to Peace Corps Headquarters, where it goes through
the project status review process and is reported annually to the Congress. According to
staff and many Volunteers in PC/Guyana, they are not shown the trimesterly report
format and do not receive training during PST on the kind of data to collect or how to
complete the performance report. Sixty-five percent of the Volunteers in our sample
were sworn-in in July 2008, and many of them stated that they had never seen the form or
had just recently seen it when it was sent to them to be completed. One Volunteer
commented, “Peace Corps needs to tell Volunteers during PST to keep up with that
information so when the report is due we have that information on hand. They did not do
that this last past PST.”

Furthermore, distributing the reporting forms electronically poses a problem for
Volunteers who do not have regular access to email and cannot always receive the form
before the submission deadline. A few Volunteers recommended distributing the blank
forms in advance so Volunteers have copies before the deadline:



Final Program Evaluation Report: Peace Corps/Guyana                                  11
       “It would have been nice to see what the quarterly report looked like at the
       beginning of the quarter instead of the end. . . Most Volunteers don't have
       email and only go to an internet cafe once a week. So they should give us
       a flash drive or just paper hard copies.”

Despite not receiving advance information about the trimesterly reports, the Volunteers
we interviewed who had completed the report (70%) were still confident in the accuracy
of their numbers (the other Volunteers could not comment). Although some Volunteers
do not systematically track information, others said that their NGOs or partner
organizations made them keep logs, which could be used for their reports. Others said
that they use estimates, use the partial information tracked by their NGO and fill in the
missing information, or rely on their memory.

Given the significance of this data, it is important for the post to provide Volunteers with
the proper training so that they can accurately complete their trimesterly forms. The OIG
believes that better training and distribution of the forms could improve data quality and
address Volunteers’ concerns about the delivery of blank reporting forms. The OIG also
believes that data quality can be further improved if the post implements the new
Volunteer Reporting Tool (VRT) when available.

               We recommend:

               6. That the post provide training during PST on the
                  content and format of the trimesterly reports.

               7. That the post provide blank trimesterly report
                  forms to Volunteers when they need them, possibly
                  through advance distribution.


VOLUNTEER SUPPORT

To help Volunteers be successful, staff needs to support them in many areas. This
evaluation attempts to answer the question “to what extent has the post provided adequate
support and oversight to Volunteers?” To determine this, the evaluation assesses
numerous factors, including staff communications to Volunteers; project and status report
feedback; medical support; safety and security elements such as site visits, the
Emergency Action Plan (EAP), and the occurrence and handling of crime incidences; and
the Volunteer living allowance.

Overall, PC/Guyana Volunteers feel well-supported by in-country staff. The average
ratings for staff on a five-point scale (1 = Not Supportive, 5 = Highly Supportive) are as
follows:




Final Program Evaluation Report: Peace Corps/Guyana                                      12
           Table 7: Responses regarding Volunteer support 5
                                       Average Rating         % of Volunteers rating
             Area
                                        for Support         “average support” or better
             Leadership                      3.9                       100%
             Programming                     3.9                        94%
             Training                        3.0                        67%
             Safety and Security             4.2                        95%
             Medical                         3.5                        85%
             Administrative                  3.9                       100%
            Source: OIG Volunteer Interviews, 2008



We found no significant positive or negative findings related to site visits, the Volunteer
living allowance, and safety and security. Volunteers are satisfied with the number and
quality of site visits. Concerning the living allowance, it is Peace Corps’ policy that
Volunteers live modestly by the standards of the people they serve, yet not in a manner
that would endanger their health or safety. Some Volunteers expressed a desire for
money for a more well-rounded diet and others commented that they could use more
money for transportation. However, Volunteers were fairly satisfied with their living
allowance overall. We also found that Volunteers in PC/Guyana are willing to report
crimes, which is notable since the BVS indicates that Volunteers throughout Peace Corps
do not always report crimes. This is a reflection of the Volunteers’ confidence in the
staff, particularly the SSC, and interviews with Volunteers indicate that Volunteers who
have experienced a crime have been fairly satisfied with the way the situation was
handled. In addition, Volunteers report that they know where to go in an emergency.
The following table summarizes relevant data in these areas.

        Table 8: Volunteer Responses to Select Interview Questions
                                                  Average          % of Volunteers rating
         Area
                                                  Rating            “average” or better
         Site visit effectiveness1                  3.6                     89%
         Adequacy of living allowance2              3.2                     84%
         Familiarity with EAP3                      4.1                    100%
         Satisfaction with handling of
                                                     3.8                      75%
         crimes by PC/G staff4
        Source: OIG Volunteer Interviews.
        1
         N=18
        2
         N=19
        3
         N=20
        4
         N=4


5
  The Leadership score was derived from the country director score; The Programming score was derived
by averaging PTO, program manager, programming and training assistant, and HIV/AIDS coordinator
scores; the Training score was derived from the training manager score; the Safety and Security score was
derived from the safety and security coordinator score; the Medical score was derived from the collective
PCMO score; the Administrative score was derived from the administrative officer score.



Final Program Evaluation Report: Peace Corps/Guyana                                                    13
Volunteers are not receiving medications in a timely manner.

Even though the Volunteers we interviewed rated their medical support as adequate, they
said that it is difficult to receive medications in a timely manner. One Volunteer
commented, “They are not good about getting us our medications promptly . . . They also
forget to send us our malaria medication. We give advanced notice . . . and they still
don't send it . . . Writing the medications we all need by month in one place would be
good.” Furthermore, the BVS survey indicates that there have been problems with
medical support in PC/Guyana. In the 2008 BVS survey, 50% of Volunteers in
PC/Guyana rated their Peace Corps Medical Officer (PCMO) satisfaction level as “not at
all” or “minimally” and 54% selected one or two on a five-point scale (1 = not at all, 5 =
completely) when asked how satisfied they were with their medical support. 6 The
Volunteer Advisory Council (VAC) has been raising concerns about the supply and
timeliness of medications and vaccines since at least November 2007. Staff
acknowledged that this is a problem.

                   We recommend:

                   8. That the PCMO implement a method to track
                      Volunteers’ requests for medications and the status
                      of the requests.

                   9. That the post monitor Volunteers’ satisfaction with
                      the timeliness of receiving their medications.


Volunteers’ Site Locator Forms are not being accurately completed and verified.

According to the Volunteer handbook, PC/Guyana Volunteers are required to complete a
Site Locator Form (SLF) upon arriving at their site. This form includes important
information that may be needed in an emergency. When visiting Volunteer sites, the OIG
evaluators used the SLFs to try to locate 17 of 20 Volunteers; SLFs were not available for
two Volunteers and one Volunteer lives with another Volunteer whose SLF was used
instead. Of these 17 Volunteers, six (or 35%) could not be located using their site locator
form. Often the maps were not specific enough to lead someone who is not familiar with
the area to the Volunteer’s house, which may occur during an emergency. The lack of
complete and accurate SLFs has been an ongoing issue for PC/Guyana; the Peace Corps
Safety and Security Officer (PCSSO) noted this deficiency in the 2007 and 2008 reports.




6
    These questions both had 22 responses from Volunteers in PC/Guyana.


Final Program Evaluation Report: Peace Corps/Guyana                                     14
               We recommend:

               10. That the country director require appropriate staff
                   members to review the accuracy and completeness
                   of the most critical sections of the site locator forms
                   during site visits, including the maps and directions
                   to Volunteer sites.


Discrepancies in housing assessment criteria place the post at risk of selecting
Volunteer sites that do not meet safety and security standards.

PC/Guyana uses several forms and checklists to use evaluate potential new sites. One is
the “Volunteer Housing Checklist” that is used to verify twelve safety and security
measures. Another is the “PCV Site and Home Assessment Report” that is more
comprehensive but does have some overlap with the Volunteer Housing Checklist. When
visiting Volunteer sites the OIG evaluators did an assessment of the homes using the
post’s Volunteer Housing Checklist. Only 39% of the sites visited by the evaluators met
all of the applicable criteria on the housing checklist. The biggest area of concern was
having windows that can be securely closed and locked – only 56% of the sites met this
criterion (although most of the windows could be closed, many could not be locked).
The PCV Site and Home Assessment Report has somewhat different criteria regarding
windows; according to this form, windows must have bars but makes no mention of lock
requirements.

The PCSSO noted in 2007 and 2008 that there is confusion and disagreement as to which
document contains the correct site development criteria. Although the 2008 PCSSO
report indicated that site selection criteria was being updated in early 2008, it does not
appear that these discrepancies have been resolved. Volunteer sites are still being
evaluated based on different criteria, and sites are being approved that do not meet all of
the criteria. Because numerous staff members in PC/Guyana have responsibility for
selecting and assessing potential Volunteer sites, the lack of clear, consistent criteria
places the post at risk of having different staff members evaluating the sites in different
ways and may place Volunteers at risk if critical housing criteria are not understood or
are misinterpreted.

               We recommend:

               11. That the programming and training officer, the
                   PCMO, and the SSC develop clear, consolidated
                   criteria for site selection, distribute the updated
                   criteria to the appropriate staff members, and train
                   all employees who have a role in site selection.




Final Program Evaluation Report: Peace Corps/Guyana                                      15
MANAGEMENT CONTROLS

Another key objective of the post evaluation is to assess the extent to which the post’s
resources and agency support and oversight are effectively aligned with the post's
mission and program, and agency priorities. To address this question we assess a number
of factors, including the post’s planning and oversight, staff management and training,
relationships with headquarters offices, and performance reporting.

We found no significant positive or negative findings related to staff training or
relationships with headquarters. Staff members at all levels are attending relevant
trainings and did not have any complaints about a lack of training opportunities. In
addition, staff in PC/Guyana stated that they feel well-supported by Peace Corps
headquarters.

PC/Guyana’s leadership and programming roles are not clearly defined.

According to “Indicators of a High Performance Post”:

       “. . . the [Country Director] and programming [staff] must work out a
       relationship that permits each to work in support of the program and
       complement each others’ contributions, without stepping on the others’
       toes or throwing up obstacles. In other words, they must work as a team;
       their roles and responsibilities must be clearly distinguished and
       practically and fairly distributed and not the subject of rivalry or turf
       battles.”

In PC/Guyana, there are concerns from both the staff and the IAP region about an overlap
of responsibilities in key programming areas. One area of particular concern is site
development. Due to staff shortages in the past, it was necessary for non-programming
staff, particularly the country director, to assist in site development. His participation
was critical in identifying sites for incoming Volunteers. However, many key
programming positions have now been filled, including the role of programming and
training officer (PTO), which was filled in July 2007. Despite this, there is ongoing
concern that non-programming staff are too heavily involved in site development.
Furthermore, the site selection process has not been formally documented and
communicated to the entire staff, and it is unclear who should be visiting and selecting
sites, the timing of these visits, the criteria for selecting sites, and the role of non-
programming staff in site identification, development, and inspection. This lack of
clarity places the post at risk of having different staff members follow different
procedures, thereby jeopardizing consistency and quality.

Evidence of this was seen during the Volunteer interviews. Ten out of 20 (or 50%) of the
Volunteers interviewed had issues with either their PST housing or permanent housing.
One factor that contributed to the housing issues was a change in PST location (that was
initiated by the country director) that left the staff approximately two months to find new
host families for 34 Trainees. To meet the PST deadline, non-programming staff was



Final Program Evaluation Report: Peace Corps/Guyana                                     16
once again needed to participate in programming activities by identifying new homestay
families. Without clear criteria, roles, and responsibilities, homestay families were
selected during a compressed timeline that compromised Volunteer safety and security.

In addition to creating problems with Volunteers’ sites, leadership’s ongoing
participation in programming takes focus away from other post operations where
oversight is needed. For example, the lack of medical access controls was readily
identified by evaluators in their conversations with staff and two brief walk-throughs of
the PCMO medical areas. In addition, Volunteers’ problems with receiving medications
have been raised since November 2007, but were not addressed or resolved before the
Peace Corps Director visited the post in October 2008. We also discovered that the post
has not been conducting regular performance appraisals of staff members. All of these
are areas under the purview of the country director that were overlooked when leadership
had to be more involved in programming to compensate for staff shortages. Now that
programming has the staff in place to manage site development, the country director
should enforce programming roles and responsibilities and focus on office operations to
ensure other office problems are quickly identified and managed.

               We recommend:

               12. That the PTO and the country director develop and
                   implement an action plan for site development,
                   including key activities, roles and responsibilities,
                   and timelines.


Staff turnover and problems with office communication and cohesion place
PC/Guyana at risk of losing key individuals and halting recent progress.

Indicators of a High Performance Post states that the following is important for staff
communication and team building:

   “If the country director can be said to have any responsibility that overrides all
   others, it is to communicate, get along, and work well with staff, and to do
   everything possible to see to it that staff members function in the same way
   toward each other. This can be done by the country director’s own example
   and through a number of strategies that support and facilitate communication,
   cooperation, and trust between others—in essence, team building.”

During our interviews staff noted that the office has issues with effective communication,
cohesion, and morale. There are several factors that contribute to this situation. First,
when the country director arrived at the post in 2005, he placed several employees on
performance improvement plans and/or terminated their employment. Other employees
left their positions voluntarily for reasons not related to performance, which has resulted
in a high turnover level. Although some people commented that the staff dismissals were




Final Program Evaluation Report: Peace Corps/Guyana                                      17
necessary to address poor performance, others said that the turnover is worrying
employees.

       “One thing I’m tensed up about is the staff rotation. It’s getting to be too
       much. Something is happening that you can’t get your hands on.
       Sometimes it happens in the middle of major activities. A Program
       Manager leaves. Now the PCMO is going. The rotation is bothering
       everybody. Too much coming and going. Somewhere along the line we
       need to work on that.”

Several people noted that the staffing situation is made worse by the difficulty finding
qualified employees to fill open positions. As a result, the office continues to be short-
staffed in key areas. For example, the office did not have a PTO position until July 2007,
and the administrative officer position had a lot of turnover until April 2008. Both of
these positions have since been filled but the office still has vacancies in key positions.
The office is supposed to have a Program Manager for both of its sectors. Currently, the
office is operating without a Health Program Manager; oversight of these Volunteers has
been distributed to several other staff members. In addition, the office is supposed to
have two PCMOs. One of these positions has been vacant since September 2008, and the
other one is filled by someone who resigned in October 2008 but has agreed to continue
employment until another PCMO joins the staff later this year.

In addition to the turnover concerns, staff members stated that the office has problems
with communication. For example, departments do not always coordinate with each
other, and staff members are not informed of important changes in policy or a
Volunteer’s status. One person commented, “Staff-to-staff [communication] is lousy. I
don’t know if it’s because people are busy and on the move but you can’t prepare for
things if you don’t find out until it’s upon you.” The country director recently announced
his intention to hold unit staff meeting on Fridays followed by an all-staff meeting on
Monday in an effort to improve office communication. That had not been fully
implemented at the time of the evaluators’ visit.

Another factor that may contribute to poor communication and cohesion is the office
layout. The evaluators and country desk unit (CDU) both noted that the office is spread
out over four floors with the country director and the safety and security coordinator
(SSC) on the top floor. Office doors are kept closed to keep offices cool and energy costs
low. This creates separation among the staff and makes it more difficult for people to
feel welcome and communicate freely on a regular basis.

To address some of these problems, the staff participated in a retreat in September 2008
that was led by an outside facilitator. The staff commented that the retreat had been
useful and they are already seeing positive changes. One person remarked, “What came
out of it is that we weren’t working well as a team. There are some issues that need to be
dealt with . . . People are making a conscious effort now . . . Now we better understand
people and why they do things . . . When you know how people are you can work with
them.”



Final Program Evaluation Report: Peace Corps/Guyana                                     18
The OIG is glad that the retreat has helped the office and believes that the use of an
outside facilitator provided a valuable external point of view. However, there are
concerns that the turnover and communication problems combined with the difficulty
finding qualified staff may jeopardize the progress PC/Guyana has made in recent years,
particularly if staff resignations and dismissals continue. These problems could take the
staff’s focus away from critical activities and decrease the level of support provided to
Volunteers. It is important that the office continue to improve communication and
address turnover concerns.

               We recommend:

               13. That the post hold unit and staff meetings on a
                   weekly basis, as planned.

               14. That the post continue to implement the
                   recommendations from the staff retreat.


Annual performance appraisals have not been conducted regularly.

Several sections of the Peace Corps Manual provide guidance for employee performance
appraisals:

   •   For foreign service nationals (FSNs), Peace Corps Manual (PCM) 602.8.1 states:
       “Supervisors have a continuous responsibility to evaluate the performance of their
       employees and to discuss the evaluation with the employees . . . On an annual
       basis, the supervisor is required to prepare a written performance evaluation.”
   •   For U.S. direct hires (USDHs), PCM section 626.10.3 states: “Appraisals shall be
       completed at the end of the appraisal period for all employees who have occupied
       their positions for 120 days or more during the appraisal period.” PCM section
       626.10.2 states that “at a minimum, the rating official must conduct at least one
       progress review with each employee approximately halfway through the appraisal
       period.”
   •   For personal services contractors (PSCs), PCM section 743.19 states: “It is U.S.
       Government policy that a PSC's performance be evaluated during and at the
       completion of each contract . . . A copy of the evaluation should be maintained by
       the Country Director with copies forwarded . . . as appropriate depending upon
       the nature of the contracted services.”

At the time of the evaluation, performance appraisals for the current appraisal cycle had
not been completed for all staff members, and a review of personnel files revealed that
appraisals have not been done for most staff on a regular basis. Of the 11 personnel files
sampled, five (or 45%) contained no appraisals and one contained an outdated
performance appraisal from 2003. The other five files contained 2008 performance
appraisals that the administrative officer had recently completed. Only three files had
appraisals before 2008. Furthermore, the evaluation team noted that performance


Final Program Evaluation Report: Peace Corps/Guyana                                     19
appraisals had not even been completed for employees with noted performance issues.
Office management acknowledged that the lack of performance appraisals has been an
issue that they are working to improve. We also learned that the evaluations for FSNs are
sent to the Embassy and the post has not kept a copy in the past. The administrative
officer intends to remedy this by keeping a copy in the Peace Corps/Guyana office.

               We recommend:

               15. That the post conduct annual and mid-year
                   performance reviews in accordance with Peace
                   Corps policy and maintain copies of all paperwork
                   in the PC/Guyana office, with copies forwarded to
                   other offices as appropriate.

               16. That the post document and communicate
                   performance issues and development needs to
                   employees.


Medical access controls are not in place.

The Peace Corps Manual provides guidance for several important areas of medical access
controls, including Volunteer records, medical supply records, and storage of medical
supplies and controlled substances. PCM section 267.2.1.2 states: “[Volunteer] records
are medically confidential and are to be stored in a file secured with a manipulation-proof
combination lock set by the PCMO.” The evaluators noted that Volunteer medical files
are held in a file cabinet in the PCMO's office. During the first inspection, the cabinets
were unlocked; the PCMO stated that the files had recently been in use and were not
locked afterwards. When the office was re-inspected over one week later, the file cabinet
was locked.

PCM section 734.1.6 (“Inventory Control”) states: “The PCMO/PCMC must maintain
medical supply records for all pharmaceuticals, controlled substances, and expendable
supplies. . . A general inventory of supplies must be taken at least every month by the
Country Director or designee. The PCMO/PCMC must inventory controlled medical
substances monthly.” The evaluation revealed that PC/Guyana does not have an up-to-
date medical supply inventory, although the staff had started developing one by the time
evaluation fieldwork came to a close.

PCM section 734.2.1.7 (“Security”) states that “Secure storage must be provided for all
medical supplies in a manner that provides effective controls and procedures to guard
against theft and diversion. Controlled medical substances . . . must be managed in a
manner consistent with professional prudence and within local and U.S. laws and
regulations. . . Minimally, such substances must be kept in a bar-locked cabinet with a
three-way combination lock personally set by the PCMO or PCMC and in a locked room
(such as a medical supply closet) within a locked room of an office building.” Medical



Final Program Evaluation Report: Peace Corps/Guyana                                     20
supplies for PC/Guyana are kept in a cabinet in a PCMO office that has a locking door.
Vaccines are kept in a refrigerator in the same office, although the refrigerator does not
have a lock. During both inspections the evaluators found the medical supply cabinet
unlocked. It was not noted whether the cabinet contained controlled medical substances
or ordinary medical supplies. However, the presence of a padlock on the cabinet
indicates that the supplies are intended to be kept locked when not in use.

The lack of a medical inventory combined with the presence of unlocked medical supply
cabinets creates an environment where theft might be easy to accomplish but difficult to
detect.

               We recommend:

               17. That the PCMO develop and maintain a medical
                   inventory and the post document the inventory
                   process, including roles and responsibilities, in
                   accordance with Peace Corps policy.

               18. That the country director and the PCMO ensure
                   that all medical files and medications are being
                   locked appropriately.


U.S. Embassy security staff do not have the most recent Emergency Action Plan for
PC/Guyana.

The evaluation team received PC/Guyana’s most recent Emergency Action Plan (EAP)
dated April 2008. According to this document:

       “. . . the Embassy’s Regional Security Officer reviews the Emergency
       Action Plan . . . This version of the EAP has been submitted to the US
       Ambassador, DCM and the RSO in Guyana. In the event that the
       PC/Guyana headquarters or its staff encounters problems functioning, the
       activation of this plan falls under the responsibility of the US Ambassador
       through the Regional Security Officer.”

The Embassy has a relatively new staff in the RSO’s office; the Assistant RSO (ARSO)
arrived in March 2008, and the RSO arrived in September 2008. Interviews with
Embassy staff revealed that the security office does not have a copy of the most recent
EAP; the one on-hand was from April 2005. Peace Corps staff members stated that they
have sent a more recent one; however, some documentation may have been lost during
the RSO staff transition. Because of the importance of this document, PC/Guyana needs
to ensure the RSO’s office has the information needed to activate the plan.




Final Program Evaluation Report: Peace Corps/Guyana                                      21
              We recommend:

              19. That the SSC and the country director brief the
                  RSO’s Office on its roles and responsibilities and
                  ensure they have the most recent EAP at all times.


Representatives at the U.S. Embassy play a valuable role in reviewing and approving
VAST grants.

PC/Guyana uses a committee to review and approve HIV/AIDS-related Volunteer
Activities Support and Training (VAST) grants, and the Embassy currently has a
representative who participates in the process. This representative also serves as the
PEPFAR Coordinator and coordinates all U.S. government agencies working in
HIV/AIDS. The coordinator is leaving the Embassy; however, the Embassy expressed an
interest in remaining part of the grant review process to continue the coordination
between PC/Guyana and other US government agencies.

              We recommend:

              20. That the post brief the new PEPFAR Coordinator
                  upon arrival and continue including him/her in the
                  VAST grant review process, if desired by the
                  Embassy.


PEPFAR

Since PC/Guyana receives PEPFAR funding, this evaluation also sought to determine the
extent to which the post is able to adequately administer the PEPFAR program, support
Volunteers, and meet its PEPFAR objectives. This includes an assessment of how well
the post is meeting the objectives laid out in the annual implementation plan, the post’s
relationships and coordination with key partners, and Volunteers’ ability to fulfill
HIV/AIDS-related assignments and handle related challenges.

We found no significant positive or negative findings related to PEPFAR except to note
that the post appears to be making improvements. In the past, Volunteers had a negative
opinion of PEPFAR, and the post struggled to meet its annual PEPFAR objectives. Over
the past few years the post has hired an HIV/AIDS Coordinator, focused its HIV/AIDS
training, used Peace Corps Response Volunteers to work on HIV/AIDS-related projects,
and worked closely with Peace Corps’ Office of AIDS Relief (OAR) to set more realistic
objectives and budgets. These activities seem to have improved PC/Guyana’s PEPFAR
program. The post is meeting its implementation plan objectives and Volunteers did not
raise any concerns about their HIV/AIDS training or work assignments. Ministry
officials noted that Peace Corps Volunteers are helping Guyana in the area of HIV/AIDS.
According to the Embassy, PC/Guyana is coordinating well with other U.S. government



Final Program Evaluation Report: Peace Corps/Guyana                                    22
agencies and helping the Guyanese Ministries meet their goals; however, they would like
to see representatives from Peace Corps headquarters increase participation in PEPFAR
Core Team meetings.




Final Program Evaluation Report: Peace Corps/Guyana                                  23
                                      POST STAFFING
At the time of our field visit, PC/Guyana had 21 staff positions, two of which were
vacant. The positions included three U.S. direct hire employees (USDH), two foreign
service nationals (FSN), and 16 personal services contractors (PSC). The post also
employees temporary staff/contractors to assist with PST. Given the time of our visit,
these people were not on staff. We interviewed 12 staff.

                                     PC/Guyana Positions
                              Position                                Status           Interviewed
         Country Director                                             USDH                  X
         Administrative Officer                                       USDH                  X
         Programming and Training Officer                             USDH                  X
         Safety and Security Coordinator                              PSC                   X
         PCMO (2: 1 full time (vacant), 1 part time) 7                PSC                   X
         Executive Assistant                                          PSC
         Administrative Assistant                                     FSN                     X
         Cashier                                                      FSN
         IT Specialist                                                PSC                     X
         General Services Manager                                     PSC                     X
         General Services Assistant                                   PSC
         Driver / Office Assistant                                    PSC
         Office Cleaner                                               PSC
         Office Assistant                                             PSC
         Training Manager                                             PSC                     X
         Program Manager/Health                                       PSC                     X
         Program Manager/Education (vacant)                           PSC
         Programming & Training Assistant                             PSC                     X
         Program Coordinator – HIV/AIDS                               PSC                     X
         Driver/PEPFAR                                                PSC




7
 The full-time PCMO has been hired but had not started working at the time of our visit. The part-time
PCMO resigned during our visit.


Final Program Evaluation Report: Peace Corps/Guyana                                                      24
                        INTERVIEWS CONDUCTED
As part of this post evaluation interviews were conducted with 20 Volunteers, 12 in-
country staff members, and 18 representatives from Peace Corps headquarters in DC, the
US Embassy in Guyana, and key project partners.

                      Interviews Conducted with PC/HQ Staff,
                    Embassy Officials, and Key Project Partners
                       Position                          Organization
       Regional Director                      PC/DC
       Chief Administrative Officer           PC/DC
       Chief of Programming                   PC/DC
       Chief of Operations                    PC/DC
       AIDS Relief Coordinator                PC/DC
       Country Desk Officer                   PC/DC
       Safety & Security Desk Officer         PC/DC
       Technical Training Specialist          PC/DC
                                              Office of the U.S. Global AIDS
       PEPFAR Core Team Leader
                                              Coordinator (OGAC)
       Chief of Mission                       US Embassy in Guyana
       Deputy Chief of Mission                US Embassy in Guyana
       Regional Security Officer              US Embassy in Guyana
       Assistant Regional Security Officer    US Embassy in Guyana
       Deputy Chief Education Officer         Guyana’s Ministry of Education
       Human Resources Manager                Guyana’s Ministry of Education
       Minister of Health                     Guyana’s Ministry of Health
                                              Guyana’s Ministry of Health,
       Programme Manager                      National AIDS Programme
                                              Secretariat
                                              Centers for Disease Control and
       Director/Chief of Party
                                              Prevention (CDC) Guyana




Final Program Evaluation Report: Peace Corps/Guyana                                 25
                      LIST OF RECOMMENDATIONS

We recommend:

1. That the post document the new Site Matching Process and continue using it with
   future Trainee inputs, if feasible.

2. That the post develop competencies and learning objectives before the next Trainee
   input arrives.

3. That the post develop a PST Trainee assessment that links to the competencies and
   learning objectives and includes assessments from trainers.

4. That the post improve phonics/literacy and cross-cultural training and monitor
   Volunteer satisfaction with PST in these areas.

5. That the post solicit Volunteers’ feedback when developing IST curricula to ensure
   the training provides relevant skills.

6. That the post provide training during PST on the content and format of the trimesterly
   reports.

7. That the post provide blank trimesterly report forms to Volunteers when they need
   them, possibly through advance distribution.

8. That the PCMO implement a method to track Volunteers’ requests for medications
   and the status of the requests.

9. That the post monitor Volunteers’ satisfaction with the timeliness of receiving their
   medications.

10. That the country director require appropriate staff members to review the accuracy
    and completeness of the most critical sections of the site locator forms during site
    visits, including the maps and directions to Volunteer sites.

11. That the programming and training officer, the PCMO, and the SSC develop clear,
    consolidated criteria for site selection, distribute the updated criteria to the
    appropriate staff members, and train all employees who have a role in site selection.

12. That the PTO and the country director develop and implement an action plan for site
    development, including key activities, roles and responsibilities, and timelines.

13. That the post hold unit and staff meetings on a weekly basis, as planned.



Final Program Evaluation Report: Peace Corps/Guyana                                        26
14. That the post continue to implement the recommendations from the staff retreat.

15. That the post conduct annual and mid-year performance reviews in accordance with
    Peace Corps policy and maintain copies of all paperwork in the PC/Guyana office,
    with copies forwarded to other offices as appropriate.

16. That the post document and communicate performance issues and development needs
    to employees.

17. That the PCMO develop and maintain a medical inventory and the post document the
    inventory process, including roles and responsibilities, in accordance with Peace
    Corps policy.

18. That the country director and PCMO ensure all medical files and medications are
    being locked appropriately.

19. That the SSC and country director brief the RSO’s Office on its roles and
    responsibilities and ensure they have the most recent EAP at all times.

20. That the post brief the new PEPFAR Coordinator upon arrival and continue including
    him/her in the VAST grant review process, if desired by the Embassy.




Final Program Evaluation Report: Peace Corps/Guyana                                   27
APPENDIX A

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
MEMORANDUM

To:          Kathy Buller, Inspector General         /7 ~
From:        Roger Conrad, Acting Regional Director:   Int~%erica and Pacific
Date:        January 27, 2009

Subject:     Preliminary Report on the Program Evaluation of Peace Corps/Guyana


Enclosed please find the Regional response to the recommendations made by the
Inspector General for Peace Corps Guyana, as outlined in the Preliminary Report on the
Program Evaluation of Peace Corps Guyana.

The Region concurs with 20 of 20 recommendations.
                     LIST OF RECOMMENDATIONS
                                 Peace Corps Guyana

1. That the post document the new Site Matching Process and continue using it with
future Trainee inputs, if feasible.

Concur: Peace Corps Guyana Programming and Training Staff have documented the
Site Placement Process and plan to refine it prior to the arrival of the next group of
Trainees (GUY 21). Revisions will be based on the recommendations of PCVs on how
the process might be improved.

Date of Completion: March 15, 2009.

2. That the post develop competencies and learning objectives before the next
Trainee input arrives.

Concur: The Programming and Training Department will complete the competencies
and learning objectives prior to the next Trainee input in February 2009.

Date of Completion: February 24, 2009.

3. That the post develop a PST Trainee assessment that links to the competencies
and learning objectives and includes assessments from trainers.

Concur: The Programming and Training Department (P&T Department) will refine its
Trainee Assessment Packet (TAP) to ensure it is reflective of Post's revised competencies
and objectives in time for the next trainee arrival in February 2009.

Date of Completion: February 24, 2009.

4. That the post improve phonics/literacy and cross-cultural training and monitor
Volunteer satisfaction with PST in these areas.

Concur: For the upcoming GUY 21 PST, the P&T Department will provide more
phonics/literacy teacher training hours. A cross-cultural component will be added to the
Host Volunteer Visit. Guest speakers will be used to compliment cross-cultural training
specifically in areas of Amerindian culture and Indo-Guyanese culture. Trainee
satisfaction will be measured through regular biweekly PST evaluations and at the PDM
workshop after the first three months at site.

Date of Completion: April 24, 2009 and ongoing.
5. That the post solicit Volunteers’ feedback when developing IST curricula to
ensure the training provides relevant skills.

Concur: The P&T Department will send Needs Assessment Surveys for each in-service
training (IST) to participating PCVs two months prior to the IST. When possible, one or
two Volunteers will be invited to assist in planning for the workshop. This will be
initiated with the upcoming Close of Service (COS) conference for GUY 19.

Date of Completion: April 1, 2009.

6. That the post provide training during PST on the content and format of the
trimesterly reports.

Concur: The P&T Department will be training current Volunteers on the new Volunteer
Reporting Tool, including the content and format of trimester reports January 27 – 29,
2009. Based on the Center Specialist’s visit the week of January 12, P&T Staff will
refine the training and sequence it into the GUY 21 COTE. Monitoring and Evaluation
training, including specifics on completing reporting forms, will be provided to Trainees
prior to the end of PST.

Date of Completion: April 24, 2009.

7. That the post provide blank trimesterly report forms to Volunteers when they
need them, possibly through advance distribution.

Concur: The P&T Department is facilitating a Monitoring, Reporting and Evaluation
Workshop to current Volunteers January 27 -- 29, 2009. Part of the workshop will
include training on accessing Sharepoint, and clarifying the electronic reporting process
for Volunteers. With the new electronic VRT, there should not be a need for blank paper
report forms. During PST, Trainees will be trained on the Activity Tracking Booklet and
will receive training on the electronic VRT during the PDM workshop at the end of the
first three months.

Guyana P&T staff were trained on the new VRT through the VRT webex on January 5,
2009 and got additional training the week of January 12, 2009 by a Center Specialist
which will allow all staff to follow the VRT distribution procedures. The new reporting
process will ensure that PCVs have their electronic reporting forms at the beginning of
the reporting period.

Date of Completion: January 30, 2009.
8. That the PCMO implement a method to track Volunteers’ requests for
medications and the status of the requests.

Concur: The PCMO has implemented a system to track Volunteers' request for
medication to assure that all PCVs' requests for medications are met in a timely manner.
Post has developed a database with all PCVs names and their medical prescriptions,
which allows the medical unit to track and project medication needs.

Post will monitor this on a quarterly basis to assure that the procurement and issuance of
medications is timely. The CD's executive assistant has been assigned to assist the PCMO
with inventory and procurement-related tasks. The PCMO and executive assistant will
prepare a quarterly report which tracks the date the request was received, and the date the
request was sent out. This will be shared with the CD as part of the oversight process.

Post is sending Invitees an email prior to their arrival reminding them to bring a three
month supply of whatever medications they are required to take and a second pair of eye
glasses so that there is not a delay of meeting their replacement needs. PCMO has also
requested assistance from M/AS/PLS for ideas filling hard-to-source medications. This
should result in speeding up the procurement process with particular vendors.

Date of Completion: January 30, 2009.

9. That the post monitor Volunteers’ satisfaction with the timeliness of receiving
their medications.

Concur: CD will solicit and record feedback from National Volunteer Advisory
Committee (NVAC) and individual PCVs on an ongoing basis. The first feedback will be
requested by March 2009 as to whether they are receiving their medical supplies in a
timely basis.

Date of Completion: Beginning March 1, 2009 and ongoing.

10. That the country director require appropriate staff members to review the
accuracy and completeness of the most critical sections of the site locator forms
during site visits, including the maps and directions to Volunteer sites.

Concur: The Safety and Security Coordinator (SSC) conducted an inspection of all
Volunteer files and confirmed that all site locator forms were updated, including detailed
maps and directions in December 2008. The Country Director will ensure that all staff
members use the site locator form as a guide to finding the Volunteer’s residence as they
depart for site visits. Volunteer files will be reviewed quarterly by the SSC and the
Programming and Training Assistant (PTA) to ensure site locator forms are present and
accounted for. CD will be informed of status following this inspection.

Date of Completion: Beginning January 27, 2009 and ongoing.
11. That the programming and training officer, the PCMO, and the SSC develop
clear, consolidated criteria for site selection, distribute the updated criteria to the
appropriate staff members, and train all employees who have a role in site selection.

Concur: Peace Corps Guyana Programming and Training Staff developed programming
site selection criteria during the recent visit of a Center Specialist. The P&T Staff will
seek input from the PCMO and SSC on this new criteria to ensure it is consistent with
Medical and Safety & Security criteria. Final criteria will be established and all
PC/Guyana staff will be trained on its use.

Date of Completion: March 15, 2009.

12. That the PTO and the country director develop and implement an action plan
for site development, including key activities, roles and responsibilities, and
timelines.

Concur: The PTO and CD will develop and implement an action plan for site
development based on the site selection criteria developed by the staff. It will include
key activities, roles and responsibilities and timelines. This information will be shared
with the staff during the site selection criteria training. Official Site Visits have now been
scheduled for Months 1—2; Months 10—11; and Months 21—23.

Date of Completion: May 1, 2009.

13. That the post hold unit and staff meetings on a weekly basis, as planned.

Concur: The Country Director and unit heads will ensure respective staff and unit
meetings are held on a weekly basis.

Date of Completion: January 1, 2009 and ongoing.

14. That the post continue to implement the recommendations from the staff retreat.

Concur: Unit heads and the CD will continue to implement the recommendations from
the September 2008 Staff Retreat.

Date of Completion: January 30, 2009.
15. That the post conduct annual and mid-year performance reviews in accordance
with Peace Corps policy and maintain copies of all paperwork in the PC/Guyana
office, with copies forwarded to other offices as appropriate.

Concur: Unit heads will ensure annual and mid-year performance reviews are conducted
and submitted by June 30 and November 30 respectively. CD will issue a memo
instructing Staff to conduct mid- and end-of-year appraisals. Renewal of PSC staff is
dependent upon completion of both mid- and end-of-year appraisals, putting shared
responsibility on part of staff and unit heads in completing performance reviews.

Date of Completion: February 27, 2009 and ongoing.

16. That the post document and communicate performance issues and development
needs to employees.

Concur: Unit heads will ensure that staff performance issues are addressed in a timely
manner, via the annual and mid-year performance review process, and at other times as
necessary and appropriate. Unit heads will ensure that staff performance issues are
documented in personnel files and addressed in a timely manner through the annual and
mid-year review processes, and at other times as necessary and appropriate, as indicated
in the PC/Guyana Staff Handbook. Additionally, unit heads will continue to promote staff
development throughout the year as opportunities arise and through our upcoming IPBS.

Date of Completion: February 27, 2009 and ongoing.

17. That the PCMO develop and maintain a medical inventory and the post
document the inventory process, including roles and responsibilities, in accordance
with Peace Corps policy.

Concur: As of December 2008, there exists an updated medical inventory that has been
documented, reviewed by the PCMO, and signed by the PCMO, CD, and Executive
Assistant. The ongoing medical inventory will be updated on a quarterly basis by the
PCMO and executive assistant and reviewed and signed by them and the CD. As of
January 30, 2009, this will be reflected in the job descriptions of the PCMO and
executive assistant. PCMO has reviewed with the executive assistant the policies and
procedures outlined in the Medical Technical Guidelines (MS240) regarding
Procurement and Inventory.

Date of Completion: January 30, 2009 and ongoing.
18. That the country director and PCMO ensure all medical files and medications
are being locked appropriately.

Concur: As of December 2008, all medical files and medications are being locked
appropriately, in compliance with the policies and procedures outlined in the Medical
Technical Guidelines (MS 210 and MS 240). The CD will continue to make random
checks to ensure the same.

Date of Completion: January 1, 2009.

19. That the SSC and country director brief the RSO’s Office on its roles and
responsibilities and ensure they have the most recent EAP at all times.

Concur: The SSC has shared post’s updated EAP with the RSO in November 2008 and
received receipt of the same from her. The CD and SSC have regular discussions with the
RSO and her assistants to ensure that they understand our roles and responsibilities. Two
current examples are the preparation for contingencies during flooding and our ongoing
requests for contractor security clearances. Finally, the RSO receives all incident reports
concerning PCVs through CIRS.

Date of Completion: January 1, 2009 and ongoing.

20. That the post brief the new PEPFAR Coordinator upon arrival and continue
including him/her in the VAST grant review process, if desired by the Embassy.

Concur: A new Mission PEPFAR Coordinator has yet to be identified, however Peace
Corps Guyana will make an appointment to brief the new Coordinator on the PC/Guyana
HIV/AIDS program, including PEPFAR funding, VAST grant review process and
Implementation Plan within the first month of his/her arrival.

Date of Completion: Within one month of the arrival of the new Mission PEPFAR
Coordinator.
APPENDIX B

                               OIG COMMENTS

Management concurred with all 20 recommendations. We closed recommendation
numbers 13 and 18. Recommendation numbers 1 - 12, 14 - 17, 19, and 20 remain open
pending confirmation from the chief compliance officer that the following has been
received:

   •   For recommendation number 1, documentation of the Site Matching Process.

   •   For recommendation number 2, a copy of the competencies and learning
       objectives.

   •   For recommendation number 3, a copy of the pre-service training Trainee
       Assessment Package.

   •   For recommendation number 4, documentation showing the changes made to
       training (for example, an updated calendar of training events that highlights the
       improvements made) and documentation demonstrating that the post is
       monitoring Volunteer satisfaction with phonics/literacy and cross-cultural
       training.

   •   For recommendation number 5, a copy of a Needs Assessment Survey.

   •   For recommendation number 6, a copy of the updated calendar of training events.

   •   For recommendation number 7, documentation explaining how paper copies of
       needed reporting forms will be provided to Volunteers in a timely manner.

       During the evaluation, Volunteers expressed a need for timely access to paper
       copies of reporting forms since computer access is not always available. The OIG
       commends the post for quickly transitioning to the new Volunteer Reporting Tool
       (VRT). However, since this change alone will not solve the problem for
       Volunteers without computer access, the OIG believes there is still a need for
       paper forms.

   •   For recommendation number 8, documentation of the new tracking database (e.g.,
       screen shot) and a copy of a quarterly report (excluding Volunteers’ medically
       confidential information).

   •   For recommendation number 9, documentation of recorded feedback from
       National Volunteer Advisory Committee (NVAC) meeting / feedback session.
APPENDIX B
   •   For recommendation number 10, documentation of quarterly inspection status and
       results.

   •   For recommendation number 11, a copy of the final programming site selection
       criteria and documentation confirming that staff training has taken place.

   •   For recommendation number 12, a copy of the action plan for site development.

   •   For recommendation number 14, documentation showing progress toward
       implementation staff retreat recommendations.

   •   For recommendation number 15, documentation of the country director’s memo
       to staff announcing performance appraisals.

   •   For recommendation number 16, a copy of the PC/Guyana Staff Handbook.

   •   For recommendation number 17, a copy of a medical inventory.

   •   For recommendation number 19, documentation that the regional security officer
       has a copy of the latest emergency action plan and access to CIRS.

   •   For recommendation number 20, documentation confirming the briefing of the
       new PEPFAR Coordinator on PC/Guyana’s HIV/AIDS program, including
       PEPFAR funding, VAST grant review process and Implementation Plan.


In their response, management described actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that the region or post has taken these
actions nor that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted,
we may conduct a follow-up review to confirm that action has been taken and to evaluate
the impact.
APPENDIX C

        PROGRAM EVALUATION COMPLETION
              AND OIG CONTACT

OIG CONTACT        If you wish to comment on the quality or usefulness of
                   this report to help us improve our products, please e-mail
                   Shelley Elbert, Assistant Inspector General for
                   Evaluations and Inspections, at selbert@peacecorps.gov,
                   or call (202) 692-2904.

STAFF              This program evaluation was conducted under the
ACKNOWLEDGEMENTS   direction of Shelley Elbert, Assistant Inspector General for
                   Evaluations, and by Evaluator Heather Robinson.
                   Additional contributions were made by Reuben Marshall
                   and April Thompson.
        REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  (800) 233-5874
               Washington Metro Area:              (202) 692-2915

Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
